September 30, 1999

WILLIAM J. DOWLING
VICE PRESIDENT, ENGINEERING

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

MICHAEL F. SPATES
MANAGER, DELIVERY

DAVID A. CLARK
MANAGER, DELIVERY VEHICLE OPERATIONS

SUBJECT:	 Audit Report on Opportunities to Increase Savings Through the Use of
          Natural Gas Vehicles (Report Number CA-AR-99-001)

This report presents the results of our review of the extent to which compressed natural
gas has been used in United States Postal Service (USPS) vehicles and the process for
purchases made under the USPS Alternative Fuels Program (Project Number
99RA008CA000).

The audit revealed that the USPS could increase savings from the Alternative Fuels
Program by increasing usage of compressed natural gas in USPS vehicles. Usage
increase can be achieved by re-deploying vehicles, providing incentives for use of
natural gas, working with public utilities to establish additional onsite natural gas
stations and considering whether USPS can fund and operate on-site natural gas
stations. We also found that the purchasing process for alternative fuels needed
improvement. Management agreed with our recommendations and has initiated action
to address the issues in this report. Management's responses and our evaluation of the
responses are attached to the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact             ,
             me at (703) 248-2300.


Sylvia L. Owens
Assistant Inspector General
 for Revenue/ Cost Containment

Attachment
cc: 	 Norman E. Lorentz
      Office of Deputy Postmaster General
      Alan B. Kiel
      John R. Gunnels




                                 Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles


                                   TABLE OF CONTENTS
Part I


Executive Summary
                                                      i


Part II


Introduction
   Background                                                           1

   Objectives, Scope, and Methodology                                   1

   Prior Audit Coverage                                                 2



Audit Results 

   Alternative Fuels Program Opportunities                              3

          Compressed Natural Gas Usage                                  5

          Redeployment Strategy                                         7

          Recommendations                                               8
          Management’s Comments                                         8

          Evaluation of Management’s Comments                           8



   Contract File Documentation                                          9

          Recommendation                                                9
          Management’s Comments                                         9

          Evaluation of Management’s Comments                          10 



Appendix: Management’s Comments                                        12 





                                            Restricted Information
Opportunities to Increase Savings Through                                        CA-AR-99-001
 the Use of Natural Gas Vehicles


                                  EXECUTIVE SUMMARY
Introduction 	                We completed an audit of the use of compressed natural
                              gas in United States Postal Service (USPS) vehicles and
                              purchases made under the Alternative Fuels Program. The
                              objectives of the audit were to evaluate the extent to which
                              compressed natural gas has been used in USPS vehicles
                              and the process for purchases made under the USPS
                              Alternative Fuels Program.

                              The USPS Alternative Fuels program has focused on
                              compressed natural gas, methanol and ethanol fuels, liquid
                              propane gas, and electric power. Our audit focused on
                              USPS vehicles that had been converted to use compressed
                              natural gas.

Results in Brief	             We identified that the USPS had been saving about
                              $228,000 per year by increasing the use of compressed
                              natural gas at the on-site fueling locations. However, based
                              upon USPS engineering maintenance and fuel savings
                              data, we estimated that the USPS could increase savings to
                              over $3 million per year by increasing usage of
                              compressed natural gas in 7,300 vehicles to the 90 percent
                              goal in the USPS Alternative Fuel Vehicle Strategic Plan.
                              Increased use of compressed natural gas would also be
                              consistent with the USPS Alternative Fuels Program and
                              could allow recovery of the $13.25 million cost expended to
                              convert the vehicles to operate on compressed natural gas.
                              We also found contract management weaknesses with
                              some alternative fuels-related contract files.

                              Regarding the use of compressed natural gas, the 7,300
                              converted vehicles have been operated only about
                              27 percent of the time on compressed natural gas. The
                              most significant use of compressed natural gas was at
                              USPS locations with on-site fueling capabilities. For
                              example, at six sites where there was on-site compressed
                              natural gas, this type of fuel was used an average of
                              94 percent of the time in converted vehicles. Conversely, at
                              two sites where compressed natural gas was not available,
                              124 vehicles were converted at a cost of about $380,000,
                              but none of the vehicles had been operated on compressed
                              natural gas following conversion.




                                                       i
                                            Restricted Information
Opportunities to Increase Savings Through                                          CA-AR-99-001
 the Use of Natural Gas Vehicles


                              USPS alternative fuels program officials stated that their
                              program goal of 90 percent usage of compressed natural
                              gas had not been achieved because there was no strategy
                              to re-deploy vehicles where use of compressed natural gas
                              would be optimized and no management evaluation criteria
                              existed to hold managers accountable for using alternative
                              fuels in USPS vehicles. We believe the USPS should be
                              able to increase the use of compressed natural gas by
                              (1) re-deploying vehicles where they will more likely be
                              fueled by compressed natural gas, (2) including the
                              alternative fuels program in the "CustomerPerfect!" goals as
                              an incentive to postal employees to use compressed natural
                              gas, (3) working with public utilities to establish additional
                              onsite natural gas stations, and (4) reconsidering whether
                              USPS should fund or operate onsite natural gas stations.

                              Regarding contract management weaknesses, our review of
                              sampled contract files disclosed that some of the files could
                              not be located or the files were incomplete. Six of
                              22 contract files were not located and eight contract files
                              that were located did not contain preaward documentation
                              necessary to support the solicitation and contract award
                              process. The inability to locate these contract files is a
                              management control weakness that places the USPS at risk
                              of being unable to meet potential Freedom of Information
                              Act requests and exposes the USPS to potential litigation.

Summary of                    We recommended that the:
Recommendations
                              •	 Vice President, Engineering, consider revising the policy
                                 on alternative fuel infrastructure to allow funding or
                                 operation of on-site natural gas stations and working
                                 with individual public utilities to increase on-site natural
                                 gas stations.

                              •	 Manager, Delivery, request that the Chief Operating
                                 Officer and Executive Vice President include alternative
                                 fuel usage as a "CustomerPerfect!" evaluation criteria.

                              •	 Manager, Delivery Vehicle Operations, re-deploy
                                 compressed natural gas vehicles to maximize usage.

                              •	 Vice President, Purchasing and Materials, improve
                                 controls over contract files.



                                                       ii
                                            Restricted Information
Opportunities to Increase Savings Through                                       CA-AR-99-001
 the Use of Natural Gas Vehicles


Summary of                    Management agreed with all of the recommendations.
Management's                  Specifically, management stated that Engineering, Delivery
Comments                      and Customer Service Equipment, is taking the lead on
                              conducting a more in-depth economic analysis to determine
                              whether and when on-site fueling is an advantageous
                              choice. In addition, management stated appropriate
                              elements would be added to CustomerPerfect! indicators to
                              measure alternative fuel usage and after a thorough review
                              of the current usage, vehicles will be re-deployed to
                              maximize utilization. Finally, management is emphasizing
                              and enforcing procedures relating to the closeout of files
                              and maintenance of documentation in contract files with all
                              buyers.

                              We summarized these comments in the report and included
                              the full text of the comments in the appendix.

Overall Evaluation of         Management's planned or implemented actions are
Management’s                  responsive and once completed, should address the issues
Comments                      identified in this report.




                                                      iii
                                            Restricted Information
Opportunities to Increase Savings Through                                               CA-AR-99-001
 the Use of Natural Gas Vehicles


                                          INTRODUCTION
Background                      The USPS is required to comply with requirements in the
                                Clean Air Act, the Energy Policy Act of 1992, and related
                                state and local environmental laws. The USPS primary
                                response to these Acts was to establish an Alternative Fuels
                                Program to increase the use of vehicles operating on
                                alternative fuels such as methanol, liquid propane gas,
                                electricity, and compressed natural gas. As part of the
                                Program, about 7,300 Long Life Vehicles were converted to
                                use compressed natural gas at a cost of $13.25 million.
                                USPS estimated that conversion would reduce yearly
                                maintenance costs for each vehicle by $224 and reduce fuel
                                costs for these vehicles by 50 percent. The USPS strategic
                                goal was to increase compressed natural gas use to 90
                                percent of the fuel consumed by the 7,300 converted
                                vehicles by 1998.

Objective, Scope, and           The objectives of the audit were to evaluate the extent to
Methodology                     which compressed natural gas was used in USPS vehicles
                                and the process for purchases made under the USPS
                                Alternative Fuels Program. We statistically sampled twenty-
                                two alternative fuels contracts, visited nine vehicle
                                maintenance facilities, and reviewed vehicle maintenance
                                and fuel usage records. We also held discussions with
                                USPS managers involved in the alternative fuels program.
                                Our scope was limited because the purchasing staff at
                                Headquarters did not locate six of the contracts in our
                                sample.

                                We obtained fuel usage data on converted compressed
                                natural gas alternative fueled vehicles that was available for
                                the time period October 12, 1998, through June 18, 1999.1
                                We limited our review to Postal facilities where compressed
                                natural gas vehicles were located during the period we
                                reviewed.

                                Our audit was conducted from January through August
                                1999 in accordance with generally accepted government
                                auditing standards and included such tests of internal
                                controls, as we considered necessary under the
                                circumstances. We discussed our conclusions and


1
    This fuel data included gasoline and compressed natural gas cost and consumption.



                                                       1
                                            Restricted Information
Opportunities to Increase Savings Through                                      CA-AR-99-001
 the Use of Natural Gas Vehicles


                              observations with appropriate management officials and
                              included their comments, where appropriate.

Prior Audit Coverage 	 The USPS Inspection Service completed an audit of
                       Environmental Management Policy in September 1996.
                       We followed up on management's actions regarding the
                       alternative fuels program and determined that management
                       implemented corrective actions in response to the
                       recommendations in the report.




                                                       2
                                            Restricted Information
Opportunities to Increase Savings Through                                         CA-AR-99-001
 the Use of Natural Gas Vehicles


                                       AUDIT RESULTS
Alternative Fuels             We concluded that the USPS has an opportunity to increase
Program                       savings in excess of $3 million per year if the compressed
Opportunities                 natural gas goal of 90 percent is achieved for the 7,300
                              converted vehicles. USPS alternative fuels program officials
                              stated that their goal of 90 percent had not been achieved
                              because there was no strategy to re-deploy vehicles where use
                              of compressed natural gas would be optimized and no
                              management evaluation criteria existed to hold managers
                              accountable for using alternative fuels in USPS vehicles. We
                              believe the USPS should be able to increase the use of
                              compressed natural gas by (1) re-deploying vehicles where
                              they will more likely be fueled by compressed natural gas, (2)
                              including the alternative fuels program in the
                              "CustomerPerfect!" goals as an incentive to postal employees
                              to use compressed natural gas, (3) working with public utilities
                              to establish additional onsite natural gas stations, and (4)
                              reconsidering whether USPS should fund or operate onsite
                              natural gas stations. Increased use of compressed natural gas
                              would also be consistent with the USPS alternative fuels
                              program and could allow recovery of the $13.25 million cost of
                              converting the vehicles.

                              A December 1993 report issued by the USPS Vice President,
                              Engineering, concluded that compressed natural gas vehicles
                              cost $2,000 to $2,500 more than gasoline vehicles. However,
                              maintenance costs for compressed natural gas vehicles are
                              $224 less than gasoline vehicles each year. In addition, fuel
                              costs for these vehicles are reduced by 50 percent.
                              Consequently, USPS issued a policy that dual fuel postal
                              vehicles operate exclusively on compressed natural gas. The
                              report indicated that local postal management was responsible
                              for monitoring fuel consumption.

                              In 1994, the Vice President, Engineering, requested and
                              received approval from the Postmaster General to purchase
                              and install compressed natural gas conversion kits at a total
                              cost of $6.35 million. Based on an October 17, 1994 Decision
                              Analysis Report, savings of $4.4 million in maintenance and
                              $4.8 million in fuel consumption could be saved by installing
                              and using the conversion kits.

                              A USPS alternative fuel vehicle strategic plan, developed in
                              July 1997, established goals and objectives for using alternative



                                                       3
                                            Restricted Information
Opportunities to Increase Savings Through                                         CA-AR-99-001
 the Use of Natural Gas Vehicles


                              fuels, including (1) relocating vehicles that have less than a 70
                              percent utilization rate to areas having higher usage rates, (2)
                              educating compressed natural gas operators and supervisors
                              on the environmental, operational, and economic benefits (e.g.
                              Economic Value Added) of using compressed natural gas
                              instead of gasoline, and (3) identifying and implementing
                              appropriate incentives to encourage compressed natural gas
                              vehicle operators and vehicle managers to use compressed
                              natural gas rather than gasoline. To ensure maximum use of
                              alternative fuels, the strategic plan identified the Manager,
                              Delivery Vehicle Operations, in coordination with Area, District,
                              and local Postmasters as having the responsibility to ensure
                              that all alternative fueled vehicles were operated using
                              alternative fuel and to relocate vehicles when necessary.

                              The Vice President, Engineering, issued Management
                              Instruction AS-550-1999-4, Alternative Fuels Program, dated
                              March 5, 1999, implementing the alternative fuel vehicle
                              strategic plan. These instructions require each USPS site to
                              maximize alternative fuel use.

                              The USPS normally does not pay for fueling infrastructure.
                              Instead, alternative fuel providers are encouraged to build or
                              add fueling infrastructure to existing facilities that are in
                              proximity to the USPS location. The USPS preferred method is
                              to work with local utility companies to provide an on-site
                              refueling infrastructure. The purpose is to alleviate the
                              maintenance, economic, and liability concerns associated with
                              Postal Service owned or operated refueling infrastructure.
                              When procured off-site, the preferred method is to procure fuel
                              from a nearby commercial station.

                              As a result of the audit, we found that USPS was using
                              compressed natural gas in its 7,300 converted vehicles at a
                              rate of 27 percent nationally which was 63 percent short of its
                              1998 goal of 90 percent use of compressed natural gas in
                              converted vehicles.




                                                       4
                                            Restricted Information
Opportunities to Increase Savings Through                                        CA-AR-99-001
 the Use of Natural Gas Vehicles




                              We also found that the USPS had about 2,700 compressed
                              natural gas vehicles at 49 on-site natural gas fueling stations.
                              At these sites, the vehicles were operating 37 percent of the
                              time on compressed natural gas, which we estimated based on
                              USPS cost data, resulted in annual gasoline cost savings of
                              about $228,000.




Compressed Natural            In order to determine ways to improve the alternative fuels
Gas Usage                     program, in 1999, the USPS Environmental Management Policy
                              Office conducted a survey of Postmasters operating
                              compressed natural gas vehicles. Thirty-one percent of the
                              Postmasters surveyed were somewhat satisfied in the
                              compressed natural gas vehicle's ability to carry out mail
                              delivery and 22 percent were very dissatisfied. Varying
                              comments were given by 43 percent of those surveyed. While
                              the survey showed some discomfort with, and reluctance to the
                              use of compressed natural gas, we found an example where
                              management initiatives in the Suncoast District resulted in
                              increased compressed natural gas use cost savings.

                              Specifically, the Manager, Operations Programs Support, at the


                                                       5
                                            Restricted Information
Opportunities to Increase Savings Through                                                                CA-AR-99-001
 the Use of Natural Gas Vehicles


                              Suncoast District, sought to improve alternative fuel usage by
                              instituting local policy requiring mandatory use of alternative
                              fuels at stations with compressed natural gas vehicles. An
                              analysis of the fuel use before and after this initiative confirmed
                              implementing alternative fuel policy results in substantial
                              savings. Before the initiative, Suncoast District use was about
                              65 percent gasoline and 35 percent compressed natural gas.
                              After the initiative, compressed natural gas use in the District
                              increased to 80 percent, resulting in savings of $27,564 for the
                              9-month period.
                              We also identified several facilities which operated almost
                              exclusively on compressed natural gas. The following table
                              shows the top six vehicle maintenance facilities and post offices
                              with the highest compressed natural gas usage.

                                Vehicle                               Gasoline    Gasoline    Natural    Natural    Natural
                              Maintenance        Post                  Usage       Costs        Gas       Gas         Gas
                               Facility         Office     Vehicles                            Usage      Cost     Percentage
                                                                      (gallons)              (gallons)
                              Hartford       New Britain       71       12.5       $ 15      15,386      $9,235      99.9

                              New Haven      East Haven        61       11.6          15      8,404       3,953      99.9

                              Huntington                                             141     35,442      25,801      99.7
                              Beach          Main            118       106.0

                              Dulles         Woodbridge        28       65.2          69        874        547       93.0
                              Huntington
                              Beach          Irvine          106       6,290       8,241     43,556      31,797      87.4

                              San Diego      Chula Vista     109       5,325       7,037     34,387      30,951      86.6



                              The increased fuel savings from increasing the compressed
                              natural gas usage from the current on-site level of 37 percent
                              to the intended 1998 goal level of 90 percent will derive about
                              $554,655 per year. This savings translates to a 45 percent
                              reduction in the amount the USPS is currently paying in fuel
                              at the on-site locations. We believe these benefits could be
                              realized at other locations if additional on-site capabilities
                              existed. Although we only reviewed fuel usage, additional
                              benefits will occur in lower maintenance costs associated
                              with compressed natural gas vehicles.




                                                       6
                                            Restricted Information
Opportunities to Increase Savings Through                                          CA-AR-99-001
 the Use of Natural Gas Vehicles




Redeployment Strategy	 The USPS deployment objective is to deploy vehicles in
                       areas where compressed natural gas use can be optimized.
                       Compressed natural gas deployments should be targeted at
                       those sites where a commercial refueling infrastructure is
                       readily available, cost effective, and convenient to use. The
                       goal was to use 90 percent compressed natural gas by 1998.

                              The Manager, Delivery Vehicle Operations, agreed that
                              USPS has concerns with increasing vehicle utilization. The
                              position of Manager, Delivery Vehicle Operations, was
                              recently filled in 1999 and had been vacant since 1992. We
                              believe an analysis of re-deployment should be completed.
                              Currently, there are no plans for relocating the 124 vehicles
                              we identified that have not been using compressed natural
                              gas since their conversion.

                              The USPS established an alternative fuels program but the
                              policy has not been fully implemented. Substantial benefits
                              could be derived from the cheaper compressed natural gas
                              fuel costs compared to gasoline. In addition, the public
                              image of the USPS converting to alternative fueled vehicles
                              and their aggressive usage of the fuel will promote an
                              intangible public benefit that is unquantifiable, but shows the
                              USPS is committed to being environmentally responsible.




                                                       7
                                            Restricted Information
Opportunities to Increase Savings Through                                          CA-AR-99-001
 the Use of Natural Gas Vehicles


Recommendations	              We recommend that:

                               1. The Vice President, Engineering, reconsider current
                                  policy on not funding a compressed natural gas
                                  infrastructure in support of alternative fueled vehicles.

Management’s 	                Management conditionally agreed with the recommendation
Comments 	                    and stated that Engineering, Delivery and Customer Service
                              Equipment will lead an in-depth economic analysis to
                              determine whether and when on-site fueling is an
                              advantageous choice.

                              2. The Manager, Delivery, should request that the Chief
                                 Operating Officer and Executive Vice President include
                                 alternative fuel usage within the environmental program
                                 as a Voice of the Business management criteria.

Management’s 	                Management agreed with the recommendation and stated
Comments 	                    that, as part of the strategic planning process, appropriate
                              indicators will be recommended for inclusion in
                              CustomerPerfect!

Recommendation                3. The Manager, Delivery Vehicle Operations should assist
                                 in maximizing the benefits derived from aggressively
                                 using alternative fuel by establishing and implementing an
                                 aggressive re-deployment strategy where usage is
                                 maximized.

Management’s 	                Management agreed with the recommendation and stated
Comments 	                    that after a thorough review of the current usage by location,
                              including all relevant facts, vehicle redeployments will be
                              requested to maximize utilization.

Evaluation of                 Management's comments are responsive to our

Management’s                  recommendations. 

Comments 





                                                       8
                                            Restricted Information
Opportunities to Increase Savings Through                                        CA-AR-99-001
 the Use of Natural Gas Vehicles



Contract File 	               We statistically sampled 22 alternative fuels contracts.
Documentation 	               Headquarters Purchasing personnel could not find six
                              contract files and eight contract files were incomplete
                              because they did not include pre-award documentation.




                              Contracting personnel stated that they did not know why the
                              contract files were missing. However, the contracting officer
                              suspected the contract files were closed and inadvertently
                              omitted from the content box indices used to reference and
                              retrieve stored contract files. We noted that they had
                              procedures for recording the closeout of files and
                              maintaining pre-award documentation in contract files. The
                              absence of contract files and pre-award documentation
                              exposes the USPS to risks of potential litigation.
                              Specifically, USPS may not be able to respond to Freedom
                              of Information Act requests if they cannot locate files. In
                              addition, the USPS has a fiduciary responsibility to ensure
                              that contractor proprietary data is accounted for,
                              safeguarded, and not susceptible to unauthorized access.

Recommendation 	              We recommended that the Vice President, Purchasing and
                              Materials:

                              4. Enforce procedures for recording the closeout of files
                                 and maintaining pre-award documentation in contract
                                 files.

Management's 	                Management agreed with the recommendation and
Comments 	                    procedures for recording closeout of files and maintaining
                              pre-award documentation in contract files will be
                              emphasized and enforced with all buyers.


                                                       9
                                            Restricted Information
Opportunities to Increase Savings Through                                    CA-AR-99-001
 the Use of Natural Gas Vehicles


Evaluation of                 Management's comments are responsive to our

Management's                  recommendation. 

Comments 





                                                      10
                                            Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles




                                                     11                 Appendix
                                            Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles




                                                     12                 Appendix
                                            Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles




                                                     13                 Appendix
                                            Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles




                                                     14                 Appendix
                                            Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles


 Major Contributors to
 This Report




                                                     15
                                            Restricted Information
Opportunities to Increase Savings Through                            CA-AR-99-001
 the Use of Natural Gas Vehicles




                                                     16
                                            Restricted Information
